OIG Audit Report GR-30-01-008
Office of Community Oriented Policing Services
Grants to the Sheriff's Office
Stafford County, Virginia
Audit Report GR-30-01-008
September 13, 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Stafford County Sheriff's Office (grantee).  The purpose of the grants was to enhance community policing.  The grantee was awarded a total of $1,224,449 to hire 15 new sworn officers and to redeploy 1.9 Full Time Equivalent (FTE) officers for community policing.

We reviewed the grantee's compliance with eight essential grant conditions.  We found the grantee to be in compliance with budget practices, local matching funds, reimbursement requests, planning for officer retention, and community policing activities.  We did not review compliance with redeployment because the grantee refused the $45,000 redeployment grant.  However, we found weaknesses in the areas identified below.  As a result, we recommend $78,168 as questioned costs and $45,000 in funds to better use. 1

The required number of officers was not maintained for the UHP grant awards. The grantee exceeded the 5 percent allowance for vacancies for 14 of the 47 over the life of the grant.

	Several status reports were not timely filed.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.